NO. 20-7071
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
__________
PETE RUSSELL,
Petitioner
v.
BOBBY LUMPKIN,
Director of Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent
__________
PETITIONER’S REPLY BRIEF ON THE
PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

CAPITAL CASE

QUESTION PRESENTED FOR REVIEW

Did the Court of Appeals err in denying a certificate of appealabilty,
through a merits review, of Russell’s claim that he received ineffective
assistance of counsel at the punishment stage of trial with respect to
future dangerousness?

1

LIST OF ALL PARTIES
Pete Russell, a/k/a
Pete Russell, Jr.. No. 999443,
Texas Dept. of Criminal Justice,
Correctional Institutions Division

Petitioner, Defendant at Trial
and Applicant in State Habeas
Proceedings

Bobby Lumpkin
Director of Texas Department of Criminal
Justice, Correctional Institutions Division

Respondent

LIST OF RELATED PROCEEDINGS
1.

262nd District Court, Harris County, Texas
No. 898795 State of Texas v. Pete Russell, Jr.
Judgment entered: February 17, 2003

2

Court of Criminal Appeals of Texas
No. AP-74,595, Pete Russell v. State of Texas
Judgment entered: February 2, 2005

3.

262rd District Court, Harris County, Texas
No. 898795-A, Ex parte Pete Russell, Jr.
Findings of Fact and Conclusions of Law entered: May 9, 2013

4.

Court of Criminal Appeals of Texas
No. WR-78,128-01, Ex parte Pete Russell
Judgment entered: November 27, 2013

5.

Court of Criminal Appeals of Texas
No. WR-78,128-02, Ex parte Pete Russell, Jr.
Order of Dismissal entered: March 8, 2017

6.

United States District Court for the Southern District of Texas,
Houston Division
No. 4:13-cv-03636, Pete Russell v. Lorie Davis
Judgment entered: July 23, 2019
2

7.

United States Court of Appeals for the Fifth Circuit
No. 19-70015, Pete Russell v. Bobby Lumpkin
Judgment Entered: September 4, 2020

3

TABLE OF CONTENTS
Page
Question Presented for Review

1

List of All Parties

2

List of Related Proceedings

2

Table of Cited Authorities

5

Citations of Opinions and Orders

7

Basis for Jurisdiction

8

Constitutional Provisions and Statutes Involved

8

Statement of the Case

10

Reply Arguments

13

1.

2.

3.

The Respondent has overlooked the principle that a COA
application is not to be regarded as complete briefing on
an issue.

13

The uncertainty of Dr. Cunningham’s availability as an expert
witness does not undermine Russell’s position.

20

The Respondent urges the use of an incorrect standard for
the prejudice prong of Strickland.

21

Conclusion

23

4

TABLE OF CITED AUTHORITIES
Cases

Page

Andrus v. Texas, 590 U.S. __, 140 S.Ct. 1875, 207 L.Ed.2d 335 (2020)

18

Barefoot v. Estelle, 463 U.S. 880, 888 (1982)

15

Buck v. Davis, 580 U.S. __, 137 S.Ct, 759(2017)

14

Buxton v. Collins, 925 F. 2d 816 (5th Cir. 1991)

15

Cullen v. Pinholster, 563 U.S. 170 (2011)

22

Harrington v. Richter, 562 U.S. 86 (2011)

22

Hernandez v. Johnson, 213 F.3d 243 (5th Cir. 2000)

15

Jones v. Warden, La. State Penitentiary, 402 F.2d 776 (5th Cir. 1968)

15

Miller-El v. Cockrell, 537 U.S. 322 (2003)

14, 16

Oliver v. Quarterman, 254 Fed. Appx. 381 (5th Cir. 2007)

14-15

Oliver v. Quarterman, 541 F.3d 329 (5th Cir. 2008), cert. denied
556 U.S. 1181 (2009)

15

Simmons v. South Carolina, 512 U.S. 154 (1994)

12

Slack v. McDaniel, 529 U.S. 473 (2000)

14

Strickland v. Washington, 466 U.S. 668 (1984)

12, 21-22

Wiggins v. Smith, 539 U.S. 510 (2003)

18

Williams v. Taylor, 529 U.S. 362 (2000)

18

5

Constitutional Provisions
U.S. CONST. amend. VI

8-9. 11

U.S. CONST. amend. VIII

9

U.S. CONST. amend. XIV

9, 11

Statutes and Rules
18 U.S.C. §1254(1)

8

28 U.S.C. §2254(d)

9, 14, 18

SUP. CT. R. 10(c)

19-20

TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1)

11

TEX. CODE CRIM. PROC. Art. 37.071, §2( c)

11

6

CITATION OF OPINIONS AND ORDERS
1.

The opinion of the Court of Criminal Appeals on direct appeal is
published as Russell v. State,155 S.W.3d 176 (Tex. Crim. App. 2005).

2.

The order of the Court of Criminal Appeals denying postconviction
relief appears on that court’s web site as Ex parte Russell (Tex. Crim.
App. No. WR-78,128-01, November 27, 2013).

3.

The order of the Court of Criminal Appeals dismissing Russell’s second
state habeas application appears on the Court’s web site as Ex parte
Russell (Tex. Crim. App. No. WR-78,128-02, March 8, 2017.

4.

The memorandum and order of the United States District Court appears
as Russell v. Davis and was that court’s No. 4:13- cv-03636. It was not
designated for publication.

5.

The opinion of the Fifth Circuit Court of Appeals, denying a certificate
of appealabilty, was in that court’s No. 19-70015. It was not designated
for publication and has not yet appeared in the Federal Appendix.

7

TO THE SUPREME COURT OF THE UNITED STATES:
COMES NOW the Petitioner, Pete Russell (“Russell”), through the
undersigned counsel appointed under the Criminal Justice Act, and submits this Reply
Brief. Russell requests the grant of a writ of certiorari, and ultimately remand to the
United States Court of Appeals for the Fifth Circuit (the “Fifth Circuit”) for full
briefing and review by the Fifth Circuit panel.
BASIS FOR JURISDICTION
1.

Russell seeks to have this Court review a judgment of a panel of the

United States Court of Appeals for the Fifth Circuit, which was entered on September
4, 2020.
2.

Russell timely filed a Petition for Writ of Certiorari, now pending before

this Court.
3.

Jurisdiction is conferred upon this Court to review the Court of Appeals’

judgment by 18 U.S.C. §1254(1).

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
1.

U.S. CONST. amend. VI states:

In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
8

to have compulsory process for obtaining witnesses in his favor; and to
have the Assistance of Counsel for his defence.
Russell relies in particular on the counsel clause.
2.

U.S. CONST. amend. VIII states:

Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishment inflicted.
Russell relies in particular on the punishment clause.
3.

U.S. CONST. amend XIV, §1 states:

All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
Russell relies in particular on the due process clause.
4.

28 U.S.C. §2254(d) states:

An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim –
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
9

5.

TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1) states:

On conclusion of the presentation of the evidence, the court shall submit
the following issues to the jury:
(1) whether there is a probability that the defendant would commit
criminal acts of violence that would constitute a continuing threat to
society; ... 1
6.

TEX. CODE CRIM. PROC. Art. 37.071, §2© states:

The state must prove each issue submitted under Subsection (b) of this
article beyond a reasonable doubt, and the jury shall return a special
verdict of “yes” or “no” on each issue submitted under Subsection (b)
of this Article.

STATEMENT OF THE CASE
This cause is before the Court on Russell’s petition for writ of certiorari (the
“Petition”), which concerns the failure of the Fifth Circuit to grant a certificate of
appealability (“COA”) on one particular issue. The Fifth Circuit denied a COA as to
all issues on September 4, 2020 (Pet. App., Exh. 1).2 Russell did not seek rehearing
of the application for COA in the Fifth Circuit.
Russell’s Petition presents the following question for this Court’s
consideration:
Did the Court of Appeals err in denying a certificate of appealabilty,
1

Subsection 2(b)(2) concerns the law of parties and was not at issue here.

2

The exhibits within the Appendix to Russell’s petition for writ of certiorari are cited as
“Pet. App., Exh,” with the corresponding exhibit number.
10

through a merits review, of Russell’s claim that he received ineffective
assistance of counsel at the punishment stage of trial with respect to
future dangerousness?
In the interest of brevity for this Reply Brief, Russell incorporates by reference the
contents of the Petition for Writ of Certiorari, including the Appendix.
The factual and procedural case framework of the case is set out at length in
the Petition. Briefly summarized, the record shows that Russell raised an argument,
at every stage of habeas proceedings, that his court-appointed trial attorneys failed to
provide effective assistance of counsel at the punishment stage of trial, depriving him
of his right to counsel under U.S. CONST. amend. VI (applicable in Russell’s state
trial via U.S. CONST. amend. XIV). Specifically, Russell’s trial attorneys failed to
investigate and present a meaningful defense with respect to the first of two special
issues which a jury must answer in a death-penalty case. A Texas statute, TEX.
CODE CRIM. PROC. Art. 37.071, §2(b)(1), requires a jury to determine “whether
there is a probability that the defendant would commit criminal acts of violence that
would constitute a continuing threat to society.” The State must prove that probability
beyond a reasonable doubt. TEX. CODE CRIM. PROC. Art. 37.071, §2(c). Any
result other than a unanimous verdict, finding that there is such a probability, avoids
the death penalty, as explained on page 19 of the Petition.

11

This statutory special issue is often called the “future dangerousness” issue,
based on terminology used in an older version of the statute, in cases from this and
other courts, and in scholarly commentary.3 The label put on the topic is not
important, but its role in determining whether a defendant lives or dies
unquestionably is important.
The failure of Russell’s trial counsel to research, prepare, and present a defense
position on future dangerousness created a huge barrier to arguing directly that the
state prosecutors failed to meet their burden. That failure by counsel, constituted
ineffective assistance of counsel. Claims of ineffective assistance are evaluated under
the two-pronged test from Strickland v. Washington, 466 U.S. 668 (1984), which
requires a habeas applicant to demonstrate both inadequate performance by counsel
and resulting prejudice. In the state habeas proceedings, and at every stage thereafter,
Russell has contended that his trial attorneys provided ineffective assistance on this
special issue, resulting in a death sentence.
The state habeas judge, who was not the same judge who had presided at trial,
adopted without alteration the proposed findings of fact and conclusions of law
submitted by the state prosecutor (Pet. App., Exh. 4, last page). The Court of
Criminal Appeals denied relief, stating without elaboration that the findings and

3

See, for example, Simmons v. South Carolina, 512 U.S. 154 (1994).
12

conclusions were supported by the record. In the United States District Court for the
Southern District of Texas, Russell pointed out that the state habeas court ‘s findings
and conclusions contained almost no substantive analysis of the voluminous research
which was provided to Russell’s state habeas counsel in a report prepared by a Ph.D.
psychologist, Mark Cunningham. His report explained in detail the scholarly studies
which provided reasons why a jury should be doubtful as to a prediction of future
dangerousness (Pet. App., Exh. 7). The federal district court denied relief, so this
issue joined a handful of others in Russell’s application for a COA.
REPLY ARGUMENTS
Russell places primary reliance on the Petition, and this brief serves to reply
to a few arguments made by the Respondent.4 As explained below, the Respondent’s
counter-arguments should not dissuade this Court from facilitating a more systematic
and thorough review by the Fifth Circuit panel.
I.
The Respondent has overlooked the principle that a COA
application is not to be regarded as complete briefing on an issue.
Russell’s issue concerns the COA process in the Fifth Circuit. It would be
adequately addressed at this point by simply remanding this cause to the Fifth Circuit

4

Russell’s counsel first apologizes for some typographical errors which appear in the
Petition, despite proofreading efforts. None of those errors materially affect the content.
13

with instructions to conduct a full appellate review of Russell’s underlying
ineffective-assistance claim. In opposing the Petition, the Respondent overlooks the
fundamental principle that the COA process is not designed to create full briefing of
every issue in an applicant’s first presentation of the issues to the federal appellate
court. If it were otherwise, there would be no good reason for having two steps, i.e.
a COA step and a full consideration step, in a court of appeals.
The COA process is really a“gatekeeping” function. This Court has repeatedly
cautioned against the use of the COA process as a “short cut” for a decision on the
merits. The Petition cites Miller-El v. Cockrell, 37 U.S. 322 (2003), Slack v.
McDaniel, 529 U.S. 473 (2000), and Buck v. Davis, 580 U.S. __, 137 S.Ct, 759
(2017). Stated another way, what Russell and other COA applicants actually seek is
merely the opportunity to have a full appellate review on a particular claim. Often, as
Russell’s case illustrates, other claims may fall by the wayside. Even that is of some
benefit to an applicant because it allows appellate focus on a more promising issue.
The COA process sets a relatively low bar for what an applicant actually is seeking,
namely the chance to fully brief any issue which makes it through the COA “gate.”
That contrasts with the high bar which a petitioner must hurdle for ultimate relief
under 28 U.S.C. §2254(d).
A good example of how the COA process should work is provided in Oliver
v. Quarterman, 254 Fed. Appx. 381 (5th Cir. 2007). Oliver had presented several
14

issues, including two on which a federal district court had granted a COA. The Fifth
Circuit ordered full briefing and argument for those two. Ultimately Oliver did not
prevail, either in the Fifth Circuit or when seeking review in this Court. Oliver v.
Quarterman, 541 F.3d 329 (5th Cir. 2008), cert. denied 556 U.S. 1181 (2009).5 But
a COA does not guarantee success, and the COA system worked as it should in
Oliver. The Fifth Circuit should have taken the same approach in Russell’s case.
The Fifth Circuit’s denial of a COA also went against a a longstanding policy
which the Circuit had developed for death penalty cases. Based on a comment in
Barefoot v. Estelle, 463 U.S. 880, 888 (1982) that all non-frivolous issues should be
resolved in a death penalty case, the Fifth Circuit stated that “any doubts whether
CPC should be issued are to be resolved in favor of the petitioner.” Jones v. Warden,
La. State Penitentiary, 402 F.2d 776 (5th Cir.1968); Buxton v. Collins, 925 F. 2d 816
(5th Cir. 1991). That view has been reiterated since the current COA process replaced
the CPC process. Hernandez v. Johnson, 213 F.3d 243, 248 (5th Cir. 2000)
emphatically stated that “any doubts as to whether a COA should issue must be
resolved in [the petitioner’s] favor,” The Circuit said “must be,” not “could be.” The
Fifth Circuit should have followed that guidance in Russell’s case, for there surely
are doubts as to the state habeas court’s decision.
5

The key issue in Oliver was the use of a Bible in the jury room as a guide to application
of the death penalty. Oliver convinced the Fifth Circuit panel as to error, but not as to harm.
Oliver, 541 F.3d at 340-344.
15

The Respondent contends that the Fifth Circuit only conducted a “threshold
inquiry,” that being appropriate to the task of deciding whether to grant a COA (Resp.
Brief, pp. 13-14). Simply calling the Fifth Circuit’s decision a “threshold inquiry”
does not make it so. Miller-El tried to flesh out the meaning of a “threshold inquiry,”
clearly stating that only “an overview of the claims in the habeas petition and a
general assessment of their merits” should guide the decision to grant a COA,”
eschewing “full consideration” of the facts and the competing legal arguments.”
Miller-El, 537 U.S. at 336.
The substance of what the Fifth Circuit panel wrote in Russell’s case shows
that the panel was looking to the merits of the issue, then deciding on the merits
without receiving full briefing on the merits. While the Respondent declares
(Respondent’s brief, p. 12), that Russell is “wrong,” the parties just disagree as to
how to determine whether there was a properly limited“threshold inquiry.” Such a
disagreement shows that the parties, the Circuit, and the jurisprudence in general
could benefit from further guidance by this Court as to what constitutes a “threshold
inquiry.” That is a practical reason to grant the writ of certiorari, not deny it.
Russell does agree with the Respondent that the Circuit panel’s treatment of
the issue was light (especially in contrast to the treatment of some of the other issues),
as it only devoted two pages to this particular ineffective-assistance claim (according
to the Brief in Opposition, p. 15, which likely would not understate the Circuit’s
16

efforts). The Respondent’s point seems to be that light treatment of the issue
establishes that there was a threshold inquiry, rather than a full merits review. Russell
thinks the shortness of the Fifth Circuit’s treatment of the future dangerousness only
reflects the fact that the panel did not authorize, and did not receive, full briefing.
The sparse discussion by the Circuit panel certainly does not prove that Russell
had nothing worthwhile to say. For example, Russell only had space within the COA
application to identify ten different studies found by Dr. Cunningham with bullet
points.6 Each of them could warrant a full page or more in a merits brief. Full
discussion of Cunningham’s full commentary on future dangerousness would be quite
lengthy, as shown by what was appended to the COA application in the Appendix
(Pet. App., Exh. 7). To paraphrase the Apostle Paul in the Book of Acts, Russell’s
presentations of Cunningham’s research, at every step, “were not done in a corner.”
Despite its brevity, the Fifth Circuit panel’s attention to this issue still topped
that of the state habeas court, where the judge made exactly one finding which related
to the available scholarly evidence on the future dangerousness issue. While the

6

A big chunk of Russell’s application, and of the Circuit panel’s review, had to be
devoted to a fact-intensive sufficiency issue which hinged on how a portion of the Texas statute
defining Capital Murder was interpreted. By bringing that claim to the Fifth Circuit, Russell
was aiming to achieve certification of the question to the Court of Criminal Appeals. That was
Russell’s last chance to get the Texas court to clarify that facet of Texas law. Success on that
issue could have been a life-saver. There also were ineffective-assistance claims derived from
procedural default on other issues. All of this had to be covered within the formal word limit, and
Russell was pushing that limit as it was. The thorough discussion of future dangerousness which
should be expected from full briefing was not feasible at the COA application stage.
17

Respondent accuses Russell of “selectively ignoring” the state habeas findings (Brief
in Opposition, p. 19), Russell’s Petition discussed all of what was germane to future
dangerousness in the state habeas findings. It was the state habeas prosecutor and
state habeas judge who did the “ignoring.” The state findings and conclusions did not
even break out future dangerousness as a separate topic.
Nor did the state habeas findings adequately examine trial counsel’s “strategy”
claim, i.e. the contention that favorable comments from laymen would be superior to
expert testimony. As the Petition points out at pages 27-28, Russell’s trial attorneys
already had a preconceived bias against the use of expert testimony on future
dangerousness by either side. They did not just “neglect” pretrial investigation to find
expert insights; they deliberately avoided doing it.
Ultimately the question under Section 2254(d) is whether the state habeas
judge’s findings of fact and conclusions of law could be squared with this Court’s
case law, as it existed at the time the state habeas decision was reached. They could
not. The absence of pretrial investigation into defense themes on future dangerous
ran afoul of Williams v. Taylor, 529 U.S. 362 (2000) and Wiggins v. Smith, 539 U.S.
510 (2003). Now the Court can add Andrus v. Texas, 590 U.S. __, 140 S.Ct. 1875,
207 L.Ed.2d 335 (2020) to the case law supporting Russell’s position. Those cases
dealt with mitigation investigation, but the Respondent has not suggested that
counsel’s preparation duty is any less important for the future dangerousness issue.
18

The Respondent also contends that Russell failed to show that “reasonable
jurists would debate whether the state court’s denial of his claim was unreasonable.”
Id., at 14, quoting the Circuit’s opinion ( Pet. App., Exh. 1, p. 26). U.S. CONST.
amend. VIII has been interpreted as requiring a heightened degree of reliability in
death-penalty cases, so any jurist who simply read through Cunningham’s report
should be deeply troubled by the unreliability caused by the state habeas judge’s
disregard of Cunningham’s report. A state habeas judge who had not presided at trial
utterly failed to consider the possibility that one or more jurors could have had a
reasonable doubt if they had been given the benefit of the kind of research which Dr.
Cunningham conducted. No reasonable jurist would fail to consider whether Russell’s
trial attorneys even made a proper effort. The cold, hard fact is that those attorneys
did not want to do that, having already settled on their view that expert opinion and
research should be kept out of the trial. See the Petition, at pages 26-27.
An argument can be made that the state habeas review, with but one pertinent
finding and one incorrect conclusion of law, was so inherently inadequate that the
state habeas findings are entitled to no deference at all. But it is not necessary to go
that far, because the woefully inadequate state habeas findings and conclusions also
fail under the terms of Section 2254(d). While the Respondent argues that Russell
does not meet the criteria for review under SUP. CT. R. 10, part (c) of that rule calls
for granting the writ when a state court decision conflicts with relevant decisions of
19

this Court on a federal question. Sixth Amendment violations present a federal
question. In Russell’s case, the state habeas findings and conclusions are
incompatible with the duties of counsel under Williams, Wiggins, and Andrus.
II.
The uncertainty of Dr. Cunningham’s availability as an expert
witness does not undermine Russell’s position.
In footnote 5 of the Brief in Opposition, at page 16, the Respondent points out
that there was no proof in the state habeas record that Cunningham himself would
have been available to testify for Russell at trial. Russell had candidly admitted that
in his COA application. Seizing on that admitted fact, the Respondent contends that
proof of Cunningham’s availability as a witness was “necessary” in order for Russell
to prove prejudice. Id. Apparently the Respondent hopes for this argument to be a
deus ex machina, so that the merits of what Dr. Cunningham had to say can be
avoided. This Court should not be swayed.
Dr. Cunningham’s lengthy report addressed published scholarly opinions by
many authors, including some who helped produce a Department of Justice Study.
See Pet. App. Exh. 7. Cunningham was not the only trained expert capable of such
research. At the very least, the published authors cited by Dr. Cunningham likely had
good research skills and could be potential witnesses. Russell’s trial attorneys had
the services of a mitigation specialist, whose skill set would include doing research
20

and identifying possible expert witnesses. Additionally, the fact that Dr. Cunningham
himself would have been willing to help Russell’s attorneys in some manner is shown
by the fact that Cunningham did Herculean work on his written analyses for the state
habeas application. As to whether Cunningham, as the chosen expert, could have
testified, any scheduling conflict for Cunningham could have been overcome with a
motion for continuance. In any event, difficulty in finding an expert is not decisive.
Finding expert help is one of the core tasks in the pretrial preparation necessary for
effective representation.
The sad fact, shown by the pretrial pleadings, is that Russell’s attorneys did not
try, since they had no appetite for expert testimony on future dangerousness. They
were operating from an obsolete perspective, as explained in the Petition, at pages 2728. The Respondent tries to sanitize trial counsels’ choice as “strategy,” but Williams,
Wiggins, and Andrus made it clear that purported “strategy” cannot rest on a patently
inadequate investigation. The state habeas judge did not even address the
constitutional defect in counsel’s preparation, even though Williams and Wiggins had
been the law for years by that time.
III.
The Respondent urges the use of an incorrect
standard for the prejudice prong of Strickland.
The Respondent’s Brief in Opposition states at page 22, regarding prejudice,
21

that “there is no reason to believe that [Russell’s] sentence would have been
different.” That statement, using the word “would,” is a distortion of the second prong
of Strickland v. Washington, supra, and the problem is not just a semantic one.
Russell has no burden to prove that the complete omission of science-based
evidence regarding future dangerousness definitely did contribute to the jury’s
unanimously adverse answer to the special issue. The proper measure of prejudice
is “whether there is a reasonable probability’ of an effect on a jury’s verdict.
Strickland, 466 U.S., at 694. That means a probability “sufficient to undermine
confidence in the outcome.” Id. Later Cullen v. Pinholster, 563 U.S. 170 (2011) and
Harrington v. Richter, 562 U.S. 86, 112 (2011) noted that a “reasonable
probability”means a “substantial,” not just a “conceivable” likelihood of a different
result. Even if those latter decisions shaded the language of the Strickland test to be
a little more favorable to the Respondent’s position, they did not suggest that a habeas
applicant needed to prove that a different result would have occurred.
It was a certainty that the jury would have to address the future dangerousness
issue if it found Russell guilty of Capital Murder. Russell’s attorneys gave the jurors
no scientific basis for having reasonable doubt on that issue. Could they have done
so? Certainly. They chose not to do so without putting in the pretrial effort to get a
grasp of the professional literature or to find a qualified expert.
There is one other aspect of prejudice worth mentioning. The dissent in
22

Andrus referred to future dangerousness as a “counterweight” to mitigating evidence.
While the Texas statute is not structured to make a finding of future dangerousness
a formal “counterweight” that must be considered in deciding the mitigation special
issue, it is entirely possible that the “counterweight” effect is present, at least with
some of the jurors. At the very least, a finding of future dangerousness could give the
prosecution’s position momentum in the jury’s further deliberations on mitigation.
CONCLUSION
Wherefore, for the reasons stated in Russell’s Petition and in this Reply Brief,
Russell prays that this Court grant the writ of certiorari and ultimately remand this
cause to the Fifth Circuit for full review of the effectiveness of trial counsel regarding
future dangerousness.
Respectfully submitted,
/s/ Winston Earle Cochran, Jr.
Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

23

